Record Press Inc., 228 West 36th Street, New York, N.V. 10018•
Tel: (212) 61B-4B4B• Fax No. (212) GDB-3141

STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK

86868

AFFIDAVIT DF SERVICE

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action. and is over 18 years of age.
That on the 21st day of April 2021 deponent served 3 copies of the within
BRIEF IN OPPOSITION
upon the attorneys at the addresses below. and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Elizabeth 8. Prelogar
Acting Solicitor General
United States Department of Justice
850 Pennsylvania Avenue, NW
Washington. DC
202-514-2217
SupremeCtBriefslIDUSDOJ.gov

Attorneys for Petitioner

I. Howard Daniels. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and

correct. executed on April 21. 2021. pursuant to Supreme Court Rule 2S.5(c). All parties required to be served. have been served.

~o-rl dJ ~ ,
Howard Daniels

Sworn to me this

April 21. 2021
Jasmine Williams
Notary Public. State of New York
No. DIWl83S7S4S
[]ualified in []ueens County
Commission Expires September 18, 2023

Notary Public

Case Name: FBI v fazaga
Docket/Case No. 20-828

